JS
\

OCKLE

2311 Douglas Street A 5 E-Mail Address:
Le ga | Brie fs contact@cocklelegalbriefs.com

Omaha, Nebraska 68102-1214 .
Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

GEORGE CANTU,
Petitioner,
ve
PROVIDENCE HOSPITAL AND.
DR. SAREEV VADERAH, MD.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 8681 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 2nd day of August, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska &. Chk
i RENEE J, GOSS Q ; “

Notary Public Affiant

My Comm. Exp. September 5, 2023

 

41239
